                           il
                           ir                                                                   ,1

                                                                                                               II
                                                                                                               J1
                                                   OFFICE OF INVESTIGATIONS                                    I


                                           CLOSEOUT MEMORANDUM



                                                                                                               I

                                                                                                               I




                                                                                                               I

                                                                                                               I




                                                                                                               I
          The card number was changed, so no further charges should be incurred. NSF, as mentioned above
          has been made fin&cially whole. Accordingly, this case is closed.


                                                                                                           I
                                                                                                               Ih
                                                                                                               1
                                                                                                               i
                                                                                                               I


                                                                                                                i
                                                                                                                I
NSF 01G Fonn 2 ( 1 1/02)                                                                                       i

                                                                                                     I
                                                                                                                i
